\
-/

*

9
\
\

\

/

(

j^uprwttg Court of 'PfcitfutJqj
FILE NUMBER: 2021-SC-0048
ACTION NUMBER: 92-CR-00532
DONALD VIOLETT

V.
JOHN R. GRISE

FILING OF UNAUTHORIZED PLEADINGS
PURSUANT TO CR 79.06(6) THE PLEADING IDENTIFIED BELOW IS BEING
RETURNED TO YOU BY THE CLERK BECAUSE IT IS NOT ALLOWED UNDER THE
RULES. NO FILING FEE OR COMPLETED MOTION FOR IN FORMA PAUPERIS
WAS SUBMITTED WITH FILING. FEE IS REQUIRED PER CR 76.42(2)(A)(X). FILER
FAILED TO CORRECT DEFICIENCY WITH EARLIER MOTION FOR IN FORMA
PAUPERIS.

ENTERED:

03/16/2021

PLEADING:

MOTION FOR REHEARING

X

5

jn of

KELLY STEPHENS
CLERK, SUPREME COURT

«

(s

Gu

7<o.5^

e-s>
S,

A oe-i /v>cs^“

O

6

I

RECEIVED
4

MARI SiUii
KENTUCKY SUPREME COURT
FILE NO. 202USC'0G048
[Court of Appeals File No. 202LCA'00075]

CLERK
SUPREME COURT

DONALD RAY VIOLETT

APPELLANT
On Appeal From Warren Circuit Court
Criminal Case No. 92'CR'00532 & 626

JOHN R. GRISE - Warren Circuit Court

APPELLEES

MOTION FOR REHEARING en banc
According to this Court's record, and the prison legal mail out log, Appellant's Motion for
Discretionary Review was tendered for filing before the twenty (20) day deadline had expired.
CR 59.05.
Appellant's Motion for an Extension in Time to file Motion for Discretionary Review was
MOOT.
This Court listed the wrong court appeal come from; the wrong appeal number from the
Court of Appeals as this is urn-excusable mistake to warrant CR 59.05 relief.
WHEREFORE, Appellant moves this Court to vacate its March 3, 2021 Order and reinstate
Appellant's appeal.
Respectfully Submitted By,
DONALD RAY VIOLETT
3001 West Highway 146
LaGrange, Kentucky 40032
APPELLANT, pro se
NOTICE OF SERVICE
This is to certify that copies of the foregoing was on this 10 day of March, 2021, mailed, first
class, postage pre-paid, to Judge John R. Grise, Warren Circuit Court, 1001 Center Street,
Bowling Green, Kentucky 40601.

c9

'dbph'id 'Wia'lefr
■<UL UHWi506(

S~\

NEOPOST

LO

03/11/2021

11LMAR 2021PM 2 L

riyiLfifici<L. Y^3*-

FIRST-CLASS MAIL

!

$000:512

INMATE MAIL
NOT RESPONSIBLE FOR CONTENTS

&o 4i - SC- oo®4£
K^£- O fc/cKt^

*2

noo C,a-y\k<s»I /I

2.0a

Ftz.ja*>k £ot-lri k'c^

4 oucu

40SG.1—341SS9

cv

\

ZIP 40032
041M11457337

y
<v
KENTUCKY SUPREME COURT
FILE NO. 2021-SC-00048
[Court of Appeals File No. 2021-CA-00075]
DONALD RAY VIOLETT

APPELLANT

On Appeal From Warren Circuit Court
Criminal Case No. 92-CR-00532 & 92-CR-00626
JOHN R. GRISE - Warren Circuit Court

APPELLEES

MOTION FOR SPECIFIC FINDINGS OF FACT AND CONCLUSION OF LAW
The motion for discretionary review rule requires that the moving party
(Appellant) to prove a clear and concise statement of (i) the material facts; (ii) the
question of law involved! and, (iii) the specific reason or reasons why the judgment
should be granted. CR 76.20(3). If the grant of discretionary review is limited to
the question of law raised by the moving party, it makes senses to require the
respondent to file a cross-motion for discretionary review.
Appellant met that threshold - he stated his material facts [he was challenging
an illegal sentence on a claim of actual innocence],' he alleged the question of law
involved [a matter of first impression - can a person be convicted and prison
incarcerated on dismissed and fabricated criminal charges]; and, he vehemently
argues why the judgment should be granted [appellant has a void and nullity
judgment of conviction because the sentencing was unlawful].
Appellant moves this Court to give a specific findings of fact and conclusion of
law on each claim Appellant raised in his State Habeas Corpus application,

1

V

>“

r"
J

establishing he had a judgment of conviction ab initio.

A findings of fact and

conclusion of law, at a minimum,.must:
1.

Clearly state the grounds on which the case was determined that is: did the

moving party present sufficient claims, proof, exhibits, to support his judgment of
conviction is ab initio.
2.

Whether a state or federal question of constitutionality was presented and

answered by the respondents.
3.

Identify each claim for relief that this Court considered and make a separate

ruling on each claim.
4.

Declare, with regard to each claim, whether the denial was based on the

Appellant's failure to present sufficient facts, proof, exhibits, to establish the merits
that the judgment of conviction is ab initio/ and.
5.

Make the legal basic for denial for relief, on each claim! why the judgment of

conviction is not void.
WHEREFORE, Appellant moves for a prompt and full findings of facxt and
conclusion of law.

Respectfully Submitted By,

o \L>wtn
ft
DONALD RAY VIOLETT
3001 West Highway 146
LaGrange, Kentucky 40032
APPELLANT, pro se
NOTICE OF SERVICE
Notice is being given that a copy of the foregoing Motion was on this 10 day of March, 2021, mailed
to Judge John R. Grise, Warren Circuit Court, 1001 Center St., Bowling Green, Ky. 42101.

2

v»

,/

A

V
./

Supreme (Eourf of y&mtnthj
2021-SC-0048-D
MOVANT

DONALD VIOLETT

ON REVIEW FROM COURT OF APPEALS
NO. 2021-CA-0122
ESTILL CIRCUIT COURT NO. 92-CR-00532

V.

RESPONDENT

JOHN R. GRISE

ORDER

Movant Donald Violett’s motion for extension of time to file motion for
discretionaiy review, filed in the above-styled matter, is DENIED, and the appeal
is hereby dismissed.
0

Conley, Lambert, Nickell, and VanMeter, JJ., sitting. All concur.
ENTERED: 'MARCH 3, 2021*]

CHIEF JUSTICE

p.
/

'

j^uprrme Court of Prafurtqi
FILE NUMBER: 2021-SC-0048
DONALD VIOLETT

V.
JOHN R. GRISE

THE MOVANT (DONALD VIOLETT) HAS TENDERED FOR FILING ON 02/24/2021
THE PLEADING IDENTIFIED BELOW WHICH CANNOT BE FILED BECAUSE IT IS
DEFICIENT AS EXPLAINED BELOW. THE PLEADING MUST BE CORRECTED TO
MEET MINIMUM FILING STANDARDS.

IT IS ORDERED THAT THE CLERK SHALL RETAIN THE PLEADING AND THE
MOVANT (DONALD VIOLETT) SHALL HAVE FIFTEEN (15) DAYS FROM THE DATE
OF THIS ORDER TO MAKE THE NECESSARY CORRECTIONS. TIME FOR ANY
FURTHER STEPS WILL BEGIN TO RUN FROM THE DATE THIS PLEADING IS
PROPERLY FILED, NOTICE OF WHICH WILL BE SENT. FAILURE TO COMPLY
WITH THIS ORDER SHALL RESULT IN THE DISMISSAL OF THIS ACTION.

ENTERED:

03/01/2021

PLEADING:

DEFICIENT MOTION FOR DISCRETIONARY REVIEW

JOHN D. MINTON, JR
CHIEF JUSTICE, SUPREME COURT

DEFICIENCY REASON(S):
-CR 76.20(3) Motion Shall Not Exceed Fifteen (15) Pages in Length, Unless Otherwise
Authorized By the Court.
-CR 5.03 Proof of the Time and Manner of Service By Certificate of A Member of the
Bar of the Court Or By Affidavit of the Person Who Served the Papers. Such Certificate
Shall Identify By Name the Persons So Served

J
-CR 76.20(4) Ten (10) Copies of the Final Order Or Judgment, Any Findings of Fact,
Conclusions of Law and Opinion of the Trial Court, and Any Opinion Or Final Order of
the Appellate Court Required
-CR 76.20(6) Ten (10) Copies of Motion for Discretionary Review Required in the
Supreme Court
-KRS 454.410 the inmate shall prepare an affidavit with a certified copy of the inmate's
prison account statement (statement must be notarized.)
DONALD VIOLETT

!S
i

i

L

(7
7

Cummumuealtlj of iHmtutki$
Court of Appeals
NO. 2021-CA-0075-ME
DONALD RAY VIOLETT

v.

PETITIONER

(EXPEDITED HABEAS CORPUS APPEAL?
FROM WARREN CIRCUIT COURT
HONORABLE JOHN T. ALEXANDER, JUDGE
ACTION NO. 20-0-01280

JOHN R. GRISE

RESPONDENT
ORDER
******

BEFORE:

CLAYTON, CHIEF JUDGE; JONES AND MAZE, JUDGES.
On^January 15, 202Q7appellant filed a notice of appeal from a ^December 7

f,17, 2020, border of the Warren Circuit Court which denied a petition for writ of habeas
corpus.
By order entered on September 21, 2016, in 2015-CA-000670, this Court
imposed a special sanction upon Donald Ray Violett. That sanction provided as follows:
If Mr. Violett files an appeal in circuit court, to the Court of
Appeals, or if Mr. Violett files an original action in the Court
of Appeals, the Clerk of the Court of Appeals is directed to
present the documents to a three-judge panel for review of
whether the matter is frivolous and should be summarily

/

\
'

dismissed.
This Court having reviewed this matter, finds it lacks any merit.
Therefore, this Court ORDERS that the above-styled appeal be, and it is
hereby, DISMISSED AS FRIVOLOUS.

\

A

<JAN 2 7 2021v

ENTERED:

a

"judge; CO

Y

2

»F APPEALS

Additional material
from this filing is
available in the
Clerk's Office.

